'"



       ""'CES.


                         DEPARTMENT OF HEALTH &. HUMAN               SERVICES                         Office of Inspector General

     :it'''4JO
                                                                                                      Washington , D. C.   20201




                                                                 JUL - 8 2005




                 TO:              Susan OlT
                                  Associate Commissioner for the Children s Bureau
                                  Administration for Children and Families

                                  Dennis G. Smith
                                  Director , Center for Medicaid State Operations
                                  Centers for Medicare & Medicaid Services
                 FROM:            Brian Ritchie

                                 Acting Deputy Inspector General
                                  for Evaluation and Inspections
                 SUBJECT: " Children s Use of Health Care Services While in Foster Care:
                                 Common Themes " OEI- 07- 00- 00645


                 The Offce of Inspector General (OIG) would like to take this opportunity to share the attached
                 document , which provides information regarding access to health care services for children in
                 foster care. The document is based on eight studies that our offce conducted, the last of which
                 was recently released. Upon completion of the studies , we reviewed the experiences of all eight
                 States and have identified common themes and additional information we believe noteworthy
                 and of importance to you and to all States in your continuing efforts to ensure access to health
                 care services and favorable outcomes for children in foster care , especially with respect to:

                        Ensuring the identification of health and mental health needs of children entering foster
                        care

                        Increasing the number of Early Periodic Screening, Diagnosis , and Treatment and other
                        required examinations received within required timeframes

                        Emphasizing the importnce of case workers ' obtaining medical information for children
                        in foster care and foster care providers ' receipt of health information for the children in
                        their care

                        Documenting, updating, and managing health and mental health information for children
                        in foster care
Page 2 - Susan OlT and Dennis G. Smith

       Enhancing communication between the State agencies responsible for administering the
       foster care and Medicaid programs , and

       Using multiple sources of information to identify the services children in foster care have
       received or may be lacking.

OIG offered recommendations for improvement in each of the individual State reports. The
attched document does not contain any additional recommendations and requires no formal
comment from you. However , we would welcome any comments you might wish to share.

If you have any questions regarding this information , or if we can be of any fuher assistace
please do not hesitate to call me or your staff may contact Elise Stein, Director , Public Health
and Human Services Branch , at (202) 619- 2686 or through e-mail (Elise. Stein(ioig. hhs. gov).
To facilitate identification , please refer to report number OEI- 07- 00- 00645 in all
cOlTespondence.

Attachment
              Children’s Use of Health Care Services While in Foster Care: 

                                   Common Themes 

                                   OEI-07-00-00645 


                                                July 2005 


Summary

The Office of Inspector General, Office of Evaluation and Inspections, conducted a series
of inspections in eight States1 to determine whether children in foster care in those States
were receiving Medicaid and other health care services. Here we offer a summary of the
reports of these inspections in hope that this information and the information presented in
each of the individual State reports will be useful in all States’ efforts to identify the
health and mental health services children in foster care are receiving or lacking, and that
it will be used to ensure that children in foster care receive the health and mental health
services they need.

Our field work varied to address each State’s provision of health care services to children
in foster care. The field work consisted of a review of State policies, analysis of
child-specific Medicaid claims data and case-file documentation for sampled children in
foster care, interviews with caseworkers and foster care providers (i.e., foster parents and
residential facility staff) for children in our sample, and interviews with staff in the State
agencies responsible for administering the foster care and Title XIX Medicaid programs.
This mixed-method approach to our data collection allowed us to identify the receipt of
more health screenings and examinations than would have been identified using a single
data source.

We found that, even though sampled States utilized differing approaches
(i.e., fee-for-service or per diem rates) to provide Medicaid services to children in
foster care, all of the 400 sampled children included in these studies were covered by
their States’ Medicaid program and most had made Medicaid claims for health care
services. Through our use of mixed methods, in which we reviewed both Medicaid
claims and case-file documentation in five of the eight States,2 we found that the
experiences of sampled children varied in the receipt of required services. Mental health
screening requirements also varied, ranging from generally requiring that legal custodians
provide for the mental health of children in their custody to specifically requiring that a
developmental or psychological evaluation be completed within specific timeframes.
Many foster care providers (i.e., foster parent or residential care facility staff) interviewed


1
  The eight States (Georgia, Kansas, Illinois, New Jersey, New York, North Dakota, Oregon, and Texas)
  represented 24 percent of the total foster care population nationwide and a diverse cross section of foster
  care.
2
  We followed somewhat different methodologies in three of the eight States. We analyzed Medicaid
  claims data, but not case-file documentation, in New Jersey and Oregon. We analyzed both Medicaid
  claims data and case-file documentation in New York, but because New York used a per diem approach
  to pay for Medicaid services that children in foster care received, these sampled children could not be
  compared to children in the other States. In all three States, we determined the receipt of services beyond
  those required.

                                                      1

reported not receiving medical histories or other medical information about children in
their care.

Not all sampled children received Early and Periodic Screening, Diagnosis,
and Treatment examinations or initial examinations required upon entering
State custody

The number of sampled children who received required Early and Periodic Screening,
Diagnosis, and Treatment (EPSDT) examinations or required initial medical and dental
examinations upon entering State custody varied by State. Some services were not
received by any of the sampled children. In five States, we analyzed both fee-for-service
Medicaid claims data and case-file documentation to determine if sampled children had
received required health care services. Thus, we were able to make comparisons for
these five States. We did so based primarily on whether they had received their most
recent required EPSDT examinations in accordance with State-established frequency
guidelines, and whether they had received an initial examination upon entering State
custody in the States where initial examinations were required.

EPSDT Examinations. EPSDT examinations are designed to screen for, diagnose, and
treat conditions of Medicaid-eligible children that might go otherwise undetected or
untreated. State EPSDT programs must provide medical, hearing, vision, and dental
screenings and other necessary health care and treatment at intervals established by the
State that meet reasonable standards of practice published by recognized health care
organizations. The percentage of sampled children in the five States who had received
their most recent required EPSDT medical and dental examinations in accordance with
State-established frequency guidelines ranged from 60 to 100 percent,3 as detailed in
Table 1.

                     Table 1: Percentage of Sampled Children Receiving EPSDT
                                       Examinations Timely

                  State                     Medical Examinations              Dental Examinations
                  Georgia                                         60%                             60%
                  Illinois                                      100%                              76%
                  Kansas*                                         90%                             82%
                  North Dakota                                    70%                             79%
                  Texas                                           94%                             92%
                  *Kansas is the only sample State that printed notification of upcoming
                  required EPSDT medical and dental examinations on monthly Medicaid
                  cards mailed to foster care providers.
                 Source: Office of Inspector General, review of case files for sampled children
                 in five States, 2005



3
    Based on their age, the length of time they had been in foster care, individual State-established EPSDT
    frequency guidelines, and the periods covered by the individual State studies, 233 of the 250 sampled
    children in the five States were required to receive an EPSDT medical examination and 201 were required
    to receive a dental examination during the periods covered by these studies.

                                                            2
Initial Examinations. Initial health examinations provide an early assessment of children
and their health care needs as they enter the foster care system. Four States where we
examined both Medicaid claims and case-file documentation required that children
entering foster care receive an initial medical examination within State-established
timeframes. (One State recommended but did not require an initial medical
examination.) Two States required that children entering foster care receive an initial
dental examination within State-established timeframes; three States did not. The
percentage of sampled children who received State-required initial medical examinations
within established timeframes ranged from 42 to 97 percent. The percentages of children
entering foster care who received required dental examinations in the two States where
they are required were 29 and 66 percent. The percentages of sampled children in the
four States who received the medical and dental examinations required by their State
upon entering foster care are detailed in Table 2.

     Table 2: Medical and Dental Examinations Required Upon Entering Foster Care
     and Percentage of Sampled Children Who Received These Examinations Timely

                                  Initial Medical Examinations                    Initial Dental Examinations
   State                                               % Received                                       % Received
                            Requirement(s)                                    Requirement
                                                           Timely                                           Timely
   Georgia                           38 Days                    64%                38 Days                    29%
   Illinois*             24 hrs & 21 Days              97% & 42%                         N/A                  N/A
   Kansas                            30 Days                    82%                      N/A                  N/A
   Texas                             30 Days                    75%                90 Days                    66%
   *Illinois required that children receive an Initial Health Screening within 24 hours of entering State
   Custody and a separate Comprehensive Health Evaluation within 21 days of entering State
   custody.
  Source: Office of Inspector General, review of case files for sampled children in four States, 2005




 Requirements for initial examinations in the four States were as follows:

   • 	 The Georgia First Placement, Best Placement (FP/BP) program required that all
       children entering foster care receive a Comprehensive Child and Family
       Assessment, which includes a complete medical examination, a dental
       examination, and a developmental assessment or psychological evaluation within
       38 days of entering State custody. The components of these assessments mirrored
       those required as part of EPSDT examinations. Because children are required to
       receive Comprehensive Child and Family Assessments separately from the
       EPSDT examinations, we believe some children may have received one
       examination and not the other (e.g., FP/BP versus EPSDT), and children receiving
       both required examinations may have received some duplicated services.

   • 	 Illinois required that all children entering foster care receive an Initial Health
       Screening within 24 hours of entering State custody to identify and document
       acute medical problems and evidence of abuse, and to provide the caseworker
       with appropriate medical information to place the child. The Initial Health

                                                          3

           Screening is scheduled by the caseworker and can be performed at a hospital,
           clinic, or physician’s office, meaning that screenings can be performed 24 hours a
           day, 7 days a week. The State also required that children receive a
           Comprehensive Health Evaluation, which includes an in-depth physical
           examination and comprehensive medical and psychosocial history, within 21 days
           of entering State custody. Illinois did not require an initial dental examination
           upon entering State custody.

      • 	 Kansas required that all children entering foster care receive an initial medical
          examination within 30 days of entering State custody. Kansas did not require an
          initial dental examination.

      • 	 Texas required that all children entering foster care receive an initial medical
          examination within 30 days of entering State custody and an initial dental
          examination within 90 days.

Required mental health screenings were not received and mental health needs were
undocumented for some sampled children

Research has shown that children often enter foster care after experiencing traumatic life
events and suffer much higher rates of serious psychological problems than other children
from similar socioeconomic backgrounds.4 Therefore screening for the mental health
needs of children in foster care is essential. States establish their own policies regarding
the identification of mental health needs. Mental health screening requirements for
children in foster care in the eight States we reviewed ranged from simply requiring that a
child’s guardian be informed of the availability of mental health services and that legal
custodians provide for the mental health of children in custody, to requiring that all
children in foster care receive a psychological evaluation or developmental assessment
within 38 days of entering State custody. Two of the States reviewed had implemented
specific guidelines regarding the provision of mental health services to children in foster
care. These required that a licensed therapist, psychologist, or psychiatrist perform a
comprehensive psychological examination of children entering foster care. Specifically,

      • 	 Georgia required children in foster care to receive a developmental assessment
          (ages 3 years or younger) or psychological evaluation (ages 4 years and older)
          within 38 days of entering foster care to assess their mental health needs.
          However, 22 of the 39 sampled children who entered foster care during the period
          covered by our study did not receive the required assessments/evaluations within
          the required timeframes, and four children were not receiving ongoing services
          for assessed and documented mental health needs.




4
    Casey Family Programs, National Center for Resource Family Support, Health Care Issues for Children in
    Foster Care, March 25, 2002.


                                                     4

   • 	 Illinois required that children in foster care ages 5 and older receive a mental
       health screening, but only 1 in 14 of the sampled children ages 5 years and older
       received the screening.

We found that the only mental health screening some sampled children received was
provided as part of an EPSDT examination, the results of which were recorded in the
physical health assessment forms completed by the screening physicians. These
notations were often simply a reflection of the physician’s review of reported behavior
regarding developmental and emotional observations (i.e., exercise, sleep habits,
discipline, school grades and attendance, emotions, and peer interaction). Federal
EPSDT guidelines require that Medicaid-eligible children under the age of 21 receive
screening services that meet reasonable standards of medical and dental practice, as
determined by the State after consultation with recognized medical and dental
organizations. However, Federal EPSDT guidelines do not specifically address standards
required for mental health screenings. Federal EPSDT guidelines address mental health
screenings as part of overall medical screenings and do not require consultation with
recognized mental health organizations.

We also found that the identification of a child’s mental health needs did not necessarily
ensure that foster care providers were aware of those needs, or that the need for or receipt
of services received were documented in the case files for the sampled children. For
example, in Georgia, the foster care providers for four children were unaware of the
identified need for mental health services even though it was noted in the case file, and
mental health needs were not documented in the case files for 5 sampled children
receiving mental health services in Georgia and for 12 of the 34 sampled children who
had received mental health services in North Dakota. In evaluating whether children are
receiving adequate services to meet their mental health needs, the Administration for
Children and Families (ACF) noted in the Children and Family Services Reviews (CFSR)
for seven of the eight States we studied that mental health services were an area needing
improvement.

Forty-three percent of foster care providers reported never receiving medical
information for the sampled children in their care

Of the foster care providers we interviewed in the eight States, 43 percent (165/384)
indicated that they had received no medical history for the sampled child placed in their
care. Section 475(5)(D) of the Social Security Act requires that a child’s health records
be reviewed, updated, and supplied to the foster care provider at the time of each
placement.

Foster care providers offered the following examples of negative consequences resulting
from the absence of medical information for children in their care:

   • 	 They were unaware of severe medical problems the child had suffered in the past
       (e.g., collapsed lungs, malnutrition) that could affect the child’s ongoing health
       care needs.


                                             5

      • 	 The lack of medical information had subjected the child to repeated 

          immunizations. 


      • 	 They were unable to provide medical information to physicians treating the
          sampled children in their care.

Our findings regarding foster care providers who reported not receiving medical
information for the sampled children in their care echo the findings of ACF, in that all
eight States failed to achieve substantial conformity with the portion of the CFSR
addressing the sharing of medical information. Through the CFSRs, ACF explores how
State child welfare agencies track the medical needs of and services provided to children
in foster care and the provision of medical information to foster care providers. More
specifically, whether health records are given to foster care providers is part of the CFSR
measure used to determine State performance and substantial conformity with the child
and family well-being outcome, which assesses if children in the child welfare system are
receiving adequate services to meet their physical and mental health needs.5 ACF must
be able to determine that a State has substantially achieved the outcome in 90 percent of
the sample cases selected by ACF for review, and 95 percent of the sample cases selected
in all subsequent reviews.

             Table 3: Foster Care Providers Who Reported Never Receiving Medical
                        Information for the Sampled Child in Their Care
                                                                         Percentage of
                              Number of Foster Care Providers
                                                                          Foster Care
           State                                                        Providers Who
                                                    Reported Not         Reported Not
                                 Interviewed   Receiving Medical    Receiving Medical
                                                      Information          Information
           Georgia                                   50                           24                        48%
           Illinois                                  46                           12                        26%
           Kansas                                    46                           20                        43%
           New Jersey                                50                           18                        68%
           New York                                  49                           20                        48%
           North Dakota                              48                            9                        19%
           Oregon                                    44                           19                        43%
           Texas                                     50                           23                        46%
           All States
                                                    384                         165                         43%
           Studied
          Source: Office of Inspector General, review of case files for sampled children in eight States, 2005


The Georgetown University Child Development Center identified the need for exchange
of health care information in a 3-year study between 1997 and 2000. The report stressed
that


5
    45 CFR § 1355.34 (b)(1)(iii)(C).

                                                             6
           to ensure a child’s safety and well-being, and to enhance his/her
           opportunity for a permanent placement, parents, caregivers, agencies,
           courts, schools, and health care providers must have a clear understanding
           of the child’s health care history and needs, as well as the services and
           supports required to meet those needs.

As such, the report’s authors recommended that State child welfare agencies
establish a system for gathering and recording needed health care information on
children and their families and for sharing it with all involved persons.6

To alleviate some of the problems associated with the communication of health
information to foster care providers, some States have implemented procedures to collect
the information, ensure that foster care providers receive it, and ensure that it is kept up to
date. Examples of procedures designed to collect and document medical information
included the following:

      • 	 In Illinois, physicians were paid a $15 incentive fee to initiate a Health Passport in
          conjunction with performing the Comprehensive Health Evaluations each child is
          required to receive within 21 days of entering foster care. The Health Passport is
          a booklet containing pertinent medical information that is provided to the child’s
          foster care provider and follows the child through subsequent foster care
          placements. A copy was required to be kept in the child’s case file.

      • 	 In Kansas, the child welfare agency worked with a local State university to
          develop a medical report that contains the child’s medical history. This report
          was to be updated on an ongoing basis to reflect all medical examinations and
          immunizations the child received and was to be given to each foster care provider
          who cared for the child.

Conclusion

It is our hope that this information and the information presented in each of the individual
State reports will be useful in efforts in all States to identify the health and mental health
services children in foster care are receiving or lacking. We hope that this information
will be used to ensure that children in foster care receive the health and mental health
services they need, especially as related to:

      • 	 Ensuring the identification of health and mental health needs of children entering
          foster care;

      • 	 Increasing the number of EPSDT and other required examinations received within
          required timeframes;


6
    Georgetown University, Child Development Center (2000), “Meeting the Health Care Needs of
    Children in the Foster Care System, Summary of State and Community Efforts: Key Findings.”


                                                    7

• 	 Promoting the importance of obtaining medical information for children in foster
    care and furnishing it to foster care providers;

• 	 Documenting, updating, and managing health and mental health information for
    children in foster care;

• 	 Enhancing communication between the State agencies responsible for
    administering the foster care and Medicaid programs; and

• 	 Using multiple sources of information to identify the services children in foster
    care have received or may be lacking.

Additionally, based on our review of prior related studies, we embarked upon this
series of foster care studies expecting to find that many children in foster care were
not receiving required or needed health care services. Had we followed common
existing research approaches and relied solely on Medicaid claims data or case-file
documentation, that would have proven to be true (see Appendix A). However,
through our use of mixed methods, in which we reviewed both Medicaid claims data
and case-file documentation, we found that most sampled children had received
Medicaid health care services. Appendix B offers a detailed description of methods
used in our studies for those who might wish to similarly determine receipt of health
care services by children in foster care.




                                         8

                                                                                                    Appendix A

                   Use of Case-File Documentation and Medicaid Claims
                              to Assess EPSDT Participation

Using the mixed methods outlined in Appendix B, we reviewed both Medicaid claims
data and case-file documentation. This use of mixed methods revealed that sampled
children received more EPSDT health care screenings than a review of either the case
files or Medicaid claims histories alone would have shown. The disparity between the
receipt of services based solely on case-file documentation or Medicaid claims data was
even more striking in our review of EPSDT dental services. We believe possible causes
as to why either data source is not complete could include the following: health care
providers may not be submitting Medicaid claims for some services, children in foster
care may receive some health and dental services from providers who do not participate
in the Medicaid program, caseworkers may not be documenting some EPSDT services,
communication between caseworkers and foster care providers regarding health care and
dental services may be lacking, or difficulty may arise in transferring records from
physicians to caseworkers.

In the five States where we assessed the receipt of EPSDT services, each of the
250 sampled children was eligible to receive EPSDT health care and dental examinations.
Based on their age, length of time in foster care, and State-established EPSDT guidelines,
233 of the 250 sampled children should have received an EPSDT medical examination
and 201 should have received a dental examination during the periods covered by these
studies. The table below details the number of children in our sample in five States who
were eligible to receive EPSDT medical and dental health care examinations, and the
number that would have been counted as having received their most recent EPSDT
examinations in accordance with State-established EPSDT frequency guidelines.


                         Evidence Supporting Receipt of EPSDT Services

                                                          Evidence Reviewed

         EPSDT Service                                                                        Case-File
                                        Case-File             Medicaid Claims            Documentation
                                    Documentation                        Data           and/or Medicaid
                                                                                           Claims Data
         Medical                       129 (55.4%)                 169 (72.5%)               207 (88.8%)
         Dental                          64 (32.3%)                141 (70.1%)               159 (79.1%)
        Source: Office of Inspector General, review of case files for sampled children in five States, 2005


EPSDT Medical Examinations. A review of the case files alone would produce results
demonstrating that only 129 of the 233 eligible sampled children received an EPSDT
medical examination in accordance with State-established guidelines. A review of claims
data alone would demonstrate that 169 of the 233 eligible sampled children received
these EPSDT medical examinations timely. However, a review of both case-file

                                                          9
documentation and Medicaid claims data indicated that 207 of the 233 eligible sampled
children received their most recent EPSDT medical examination within the
State-established timeframes.

EPSDT Dental Examinations. A review of case-file documentation alone would show
that only 64 of 201 eligible sampled children received dental services in accordance with
State guidelines. A review of Medicaid claims data alone would show that 141 of the
201 eligible sampled children received dental services timely. However, a review of both
case-file documentation and Medicaid claims data indicated that 159 of the 201 sampled
children received dental services within required timeframes.




                                           10

                                                                                           Appendix B

             Methods Used in Five States to Determine the Health Care Services

                               Sampled Children Received 


In five of the eight States, we limited our reviews to the receipt of health and dental
services that met State-established EPSDT frequency guidelines, the receipt of
State-required initial medical examinations, the receipt and documentation of mental
health services required by the States, and the provision of medical information to foster
care providers.7 We did not focus on follow-up care or the appropriateness of ongoing
health care in meeting the needs of sampled children. These five inspections were based
on information gathered from multiple sources: review of Federal and State policies,
child-specific Medicaid claims data and case-file documentation for the sampled
children, interviews with caseworkers and foster care providers for sampled children, and
interviews with State child welfare and Medicaid agency officials.

Law, Regulations, and Policy Review. We reviewed Federal laws and regulations and
State foster care, Medicaid, and EPSDT program policies. We used State-established
EPSDT frequency guidelines to determine whether sampled children had received
required EPSDT medical examinations and dental services timely. We used
State-established guidelines regarding initial examinations required upon entry into foster
care. We consulted with State agency officials to enhance our understanding of each
State’s foster care and Medicaid programs and of individual State policies and
requirements developed with regard to Federal EPSDT and child welfare requirements.

Sample Selection. States were selected based on population size, geographic
location, rural or metropolitan setting, child welfare program administration
(i.e., county-administered or State-administered), and fee-for-service or managed
care provision of Medicaid services.

Children who met selected criteria were included in the study populations in each of the
five States. The criteria were that the child:

       •   Was in foster care at the time the study was being conducted,
       •   Resided within the sample State,
       •   Was eligible for Title IV-E foster care program maintenance funds, and
       •   Had been in continuous foster care placements for at least 6 months.

At our request, the child welfare agencies in each of these five States provided us with a
list of children who met these criteria. The information provided for each child included
the child’s name, date of birth, sex, county of residence, foster care entry date,

7
    We followed somewhat different methodologies in three of the eight States. We analyzed Medicaid
    claims data, but not case-file documentation, in New Jersey and Oregon. We analyzed both Medicaid
    claims data and case-file documentation in New York, but because New York used a per diem approach
    to pay for Medicaid services that children in foster care received, these sampled children could not be
    compared to children in other States. In all three States, we determined the receipt of services beyond
    those required.

                                                      11

caseworker’s name and contact information, child welfare case number, Medicaid
number, current placement setting (e.g., family, kinship, therapeutic, or residential foster
care), the number of times the child had entered foster care, the number of months since
the child’s most recent entry into foster care, the number of placements the child had
experienced during the most recent entry, and the number of months the child had resided
in the most recent placement.

We randomly selected 50 children from the list provided by each State for inclusion in
our studies.

Medicaid Claims Review. At our request, the State Medicaid agencies in each of the
five States provided us with up to 3 years of Medicaid claims data for 50 sampled
children. The 3-year Medicaid claims period was identified based on each State’s ability
to provide detailed Medicaid claims information (i.e., the 36-month period prior to the
most recent date for which the State was able to provide the information).

General Medicaid claims information provided for the sampled children in each State
included:

   •   The child’s name, Medicaid identification number, and date of birth;
   •   Dates Medicaid eligibility and/or Title IV-E eligibility began; and
   •   Other identified health insurance.

Specific claims data for each Medicaid service provided to the sampled children
included:

   •   Date of service,
   •   Type of service (procedure code and description),
   •   Diagnosis code,
   •   Place of service,
   •   Provider type,
   •   Unit of service,
   •   Amount billed to Medicaid,
   •   Whether the claim was paid or denied (and reason for denial), and
   •   Payment amount.

We analyzed the Medicaid claims information provided to determine if the sampled
children had received Medicaid services since entering foster care, what Medicaid
services they had received, and if the services they received met State-established EPSDT
frequency guidelines and State requirements for the receipt of initial medical and dental
examinations and mental health care evaluations or assessments. Medicaid claims for the
entire 3-year claims period were reviewed for sampled children who entered foster care
prior to the beginning of the period. For children who entered foster care after the
beginning of the selected Medicaid claims period, we analyzed Medicaid claims data
from the date they entered foster care through the end of the Medicaid claims period.
Each sampled child’s age and length of time in foster care was considered with regard to


                                            12

State-established EPSDT frequency guidelines and requirements for initial medical,
dental, and mental health services in determining whether the child had received the most
recent required EPSDT medical and dental examinations and required initial
examinations.

Case-File Documentation Review. We worked with child welfare agency staff in each
of the five States to determine what case-file documentation was needed to verify the
receipt of EPSDT and other required health care services in their State. We then
requested that documentation from local child welfare offices. The information requested
included supporting documentation of medical, dental, and mental health services
provided to the child (e.g., physician notes, medical forms signed by a physician), the
child’s medical history, the child’s case plan, verification of the duration of the child’s
stay in foster care, and information regarding the child’s health and general well-being.

We reviewed the case-file documentation provided as evidence that each sampled child
had received medical, dental, or mental health services (e.g., EPSDT form signed by a
physician or other health care professional). As in our review of Medicaid claims, we
compared each child’s age and length of time in foster care to State-established EPSDT
frequency guidelines to determine whether sampled children had received their most
recent required EPSDT medical and dental examinations and whether they received
required initial medical, dental, or mental health services.

Foster Care Provider and Caseworker Interviews. We conducted structured
interviews, in person or by telephone, with the foster care providers and caseworkers
responsible for most children included in each State sample. These interviews provided
us with valuable insights regarding why sampled children had received, or may not have
received, required health or mental health care services. The interviews with foster care
providers (i.e., foster parent or residential care facility staff) focused on the Medicaid
program and the services available, the training they had received related to the health
and well-being of children, and their experiences procuring health care services for the
sampled children. Interviews with caseworkers focused on their understanding of the
Medicaid program and the health and mental health services available, the training they
received related to the health and well-being of children, their experiences accessing
health care services, and any barriers to obtaining needed health care. Each caseworker
spoke specifically about the sampled child’s case, and generally about his or her own
experiences working in foster care. We compared the caseworkers’ responses with the
responses of the foster care providers, noting any consensus or disagreement within and
between the two groups.




                                            13

